Highlights
Table of Contents




                    City Letter
                    Carriers
                    Returning
Findings




                    After 5 P.M. –
                    Capital District
Recommendations




                    AUDIT REPORT
                    Report Number
                    DR-AR-14-006

                    July 21,
                         18, 2014
Appendices




                                       Print
Highlights
Table of Contents




                    Highlights                                                       Background                                                           What the OIG Found
                                                                                     In recent years, more city letter carriers have been returning       The number of city carriers returning after 5 p.m. is a growing
                                                                                     from their delivery routes after 5 p.m. Safety concerns increase     problem in the Capital District, increasing by 14 percent from
                                                                                     after dark and a number of recent incidents of violence              FY 2011, Quarter 1 to FY 2013, Quarter 4. City carriers returned
                                                                                     against carriers have been reported in the media. Media have         after 5 p.m. because mail coming from processing facilities did
                          The number of city carriers
Findings




                                                                                     also reported that customers are unhappy when their mail             not always meet times established in the integrated operating
                            returning after 5 p.m. is a                              arrives after dark. From fiscal year (FY) 2011 to FY 2013,           plan and management did not always properly supervise city
                                                                                     the percentage of city letter carriers returning after 5 p.m.        delivery operations. Adhering to integrated operating plans
                      growing problem in the Capital                                 nationwide increased from 25 to 38 percent.                          will improve mail arrival time at delivery units. Further, better
                                                                                                                                                          supervision of city letter carriers will reduce the number of
                    District, increasing by 14 percent The U.S. Postal Service’s goal is for 95 percent of city letter                                    carriers returning after 5 p.m., increase carrier safety, and
                                                                                     carriers to return from street operations before 5 p.m. Meeting      reduce late mail delivery.
                           from FY 2011, Quarter 1 to
                                                                                     this target would ensure the Postal Service collects, distributes,
Recommendations




                     FY 2013, Quarter 4. City carriers                               and delivers the mail on time.                                       In other matters, external stakeholders suggested the Postal
                                                                                                                                                          Service take additional safety measures such as providing
                        returned after 5 p.m. because                                In FY 2013, the U.S. Postal Service Office of Inspector General      brightly colored, reflective clothing to make city carriers
                                                                                     (OIG) risk indicator results consistently ranked the Capital Metro   more visible and identifiable in the dark. Other suggestions
                        mail coming from processing
                                                                                     Area’s Capital District among the five districts nationwide with     included providing additional safety training and realigning
                        facilities did not always meet                               the most city letter carriers returning after 5 p.m. Our objective   delivery routes so carriers can deliver mail earlier in the day in
                                                                                     was to assess city letter carriers returning after 5 p.m. in the     dangerous areas.
                             times established in the                                Capital District.

                           integrated operating plan.
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                   Print                                       1
Highlights
Table of Contents




                                                                                     What the OIG Recommended                                                                         arrival of mail at delivery units. We also recommended
                                                                                                                                                                                      adherence to Postal Service policies and procedures for
                                                                                     We recommended the manager, Capital District, prepare
                                                                                                                                                                                      supervising city delivery operations and collaboration with
                                                                                     integrated operating plans with facility processing managers
                                                                                                                                                                                      managers and union officials to address carrier safety.
                                                                                     that include changes to the 24-hour clock to facilitate earlier
Findings




                                                                                                                        120,000                                                                                                            1,950
                                                                                                                                                             The Two main causes for
                                                                                                                        100,000
                                                                                                                                         Roll over the quarter and
                                                                                                                                                             City Carriers Returning After 5 P.M. are:
                                                                                                                                                                                                                                           1,900




                                                                                                                                                                                                                                                   Total Number of City Routes
                                                                                          Occurrence of City Carriers
Recommendations




                                                                                                                          80,000
                                                                                                                                         year below to reveal the
                                                                                          Returning After 5 P.M.




                                                                                                                                                                                                                                           1,850
                                                                                                                          60,000
                                                                                                                                         occurrences of city letter                                                                        1,800
                                                                                                                          40,000
                                                                                                                                          carriers returning after
                                                                                                                                       1.	Mail did not always arrive on time or in the proper mail mix.
                                                                                                                                          The Postal Service designed the IOP to help stabilize mail flow.


                                                                                                                                           5 P.M. for FY 2011-13.
                                                                                                                                       2.	Supervisors did not always adequately oversee carrier delivery                                   1,750
                                                                                                                          20,000
                                                                                                                                          operations. The offices with late carriers on average had a
                                                                                                                                          1:13 span of control ratio.
                                                                                                                                 0                                                                                                         1,700
Appendices




                                                                                                                                     Q1 FY Q2 FY Q3 FY Q4 FY Q1 FY Q2 FY Q3 FY Q4 FY Q1 FY Q2 FY Q3 FY Q4 FY
                                                                                                      Roll Right                     2011 2011 2011 2011 2012 2012 2012 2012 2013 2013 2013 2013
                                                                                                                        After 1700   82935   67585   70133    77535   84174   68086     66089   74122   82886     82211   95270   100239   Close
                                                                                                                  Total Routes        1938   1938    1905      1824   1808    1830      1830    1825    1837      1837    1837    1838



                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                                                Print                                                            2
Highlights
                    Transmittal Letter


                                                                                     July 21, 2014				
Table of Contents




                                                                                     MEMORANDUM FOR:	            KELVIN L. WILLIAMS
                                                                                     				                        MANAGER, CAPITAL DISTRICT

                                                                                                                      E-Signed by Robert Batta
                                                                                                                    VERIFY authenticity with e-Sign



                                                                                     				
                                                                                     FROM: 			 Robert J. Batta
                                                                                     				      Deputy Assistant Inspector General
                                                                                     				       for Mission Operations

                                                                                     SUBJECT: 			                Audit Report – City Letter Carriers Returning After
                                                                                     				                        5 P.M. – Capital District
Findings




                                                                                     				                        (Report Number DR-AR-14-006)

                                                                                     This report presents the results of our audit of City Letter Carriers Returning After
                                                                                     5 P.M. – Capital District (Project Number 14XG014DR000).

                                                                                     We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                                     questions or need additional information, please contact Rita F. Oliver, director, Delivery
Recommendations




                                                                                     and Post Office Operations, or me at 703-248-2100.

                                                                                     Attachment

                                                                                     cc:	 Corporate Audit and Response Management
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                            Print                  3
Highlights
                    Table of Contents
                                                                                     Cover
                                                                                     Highlights.......................................................................................................1
                                                                                      Background.................................................................................................1
                                                                                      What the OIG Found...................................................................................1
                                                                                      What the OIG Recommended.....................................................................2
Table of Contents




                                                                                     Transmittal Letter...........................................................................................3
                                                                                     Findings.........................................................................................................5
                                                                                      Introduction.................................................................................................5
                                                                                      Conclusion..................................................................................................5
                                                                                      City Letter Carriers Returning After 5 P.M. in the Capital District................6
                                                                                      Late Mail Arrival..........................................................................................7
                                                                                      Supervision............................................................................................... 11
                                                                                      Management Actions................................................................................13
                                                                                      Other Matters............................................................................................13
Findings




                                                                                     Recommendations......................................................................................14
                                                                                      Management’s Comments........................................................................14
                                                                                      Evaluation of Management’s Comments..................................................15
                                                                                     Appendices..................................................................................................16
                                                                                      Appendix A: Additional Information...........................................................17
                                                                                        Background............................................................................................17
Recommendations




                                                                                        Objective, Scope, and Methodology.......................................................19
                                                                                        Prior Audit Coverage..............................................................................20
                                                                                      Appendix B: Management’s Comments....................................................21
                                                                                     Contact Information.....................................................................................25
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                         Print                            4
Highlights
                    Findings                                                         Introduction
                                                                                     This report presents the results of our self-initiated audit of City Letter Carriers Returning After 5 P.M. in the Capital District
                                                                                     (Project Number 14XG014DR000). This report is one in a series that resulted from U.S. Postal Service Office of Inspector General
                                                                                     (OIG) risk indicator1 results that consistently ranked the Capital District among the five districts nationwide with the most carriers
                                                                                     returning after 5 p.m. Our objective was to assess city letter carriers2 returning after 5 p.m. in the Capital District.

                          City carriers returned after                               In recent years, more city letter carriers have been returning from their delivery routes after 5 p.m. There are increased safety
                                                                                     concerns about carriers delivering mail after dark and a number of recent incidents of violence against carriers have been reported
Table of Contents




                        5 p.m. because mail from the                                 in the media. There has also been media coverage about customers being unhappy that their mail is arriving after dark. The
                                                                                     nationwide average number of city letter carriers returning after 5 p.m. increased from 34,933 per day (25 percent) in fiscal year
                         processing facilities did not
                                                                                     (FY) 2011 to 38,206 per day (29 percent) in FY 2012 and 50,307 per day (38 percent) in FY 2013. The Postal Service’s goal is for
                        meet times established in the                                95 percent of city letter carriers3 to return from street operations before 5 p.m. Achieving this goal would help the Postal Service
                                                                                     meet its 24-hour clock operational requirement to collect, distribute, and deliver mail on time (see Appendix A for additional
                      integrated operating plan (IOP)                                background information).

                     and management did not always
                                                                                     Conclusion
                     properly supervise city delivery                                The number of city carriers returning after 5 p.m. is a growing problem in the Capital District, increasing by 14 percent from
                                                                                     FY 2011, Quarter (Q) 1 to FY 2013, Q4. City carriers returned after 5 p.m. because mail from the processing facilities did not
                        operations. Adhering to IOPs
                                                                                     meet times established in the integrated operating plan (IOP) and management did not always properly supervise city delivery
                      will improve mail arrival time at                              operations. Adhering to IOPs will improve mail arrival time at delivery units. Further, improved supervision of city letter carriers will
Findings




                                                                                     reduce the number of carriers returning after 5 p.m., improve carrier safety, and reduce late mail delivery.
                    delivery units. Further, improved
                                                                                     In other matters, external stakeholders suggested the Postal Service take additional safety measures such as providing brightly
                    supervision of city letter carriers
                                                                                     colored, reflective clothing to make city carriers more visible and identifiable in the dark. Other suggestions included providing
                           will reduce the number of                                 additional safety training and realigning delivery routes so carriers deliver earlier in the day to areas considered to be dangerous.

                       carriers returning after 5 p.m.,
Recommendations




                          improve carrier safety, and
                            reduce late mail delivery.




                                                                                     1	 OIG risk indicator results identify potential districts and city delivery operational risk areas potentially contributing to service issues in the district (staffing, overtime);
Appendices




                                                                                        provide audit teams with a quick overview of a district’s city delivery performance and potential efficiency indicators for further analysis to formulate cost savings; and help
                                                                                        identify potential audit locations.
                                                                                     2	 The Capital District uses both city and rural carriers. Both groups provide the same core service of delivering mail to business and residential addresses 6 days a week.
                                                                                     3	 The OIG report, Postal Service Work Rules and Compensation Systems (Report Number HR-AR-11-002, dated September 19, 2011) found there are different
                                                                                        performance standards and compensation systems for city and rural letter carriers. The inability to consistently use compensation systems to efficiently manage letter
                                                                                        carriers who spend most of their time on the street rather than in the office is costly. The OIG is conducting a separate follow-up review on the compensation systems for
                                                                                        city letter carriers.
                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                                                 Print                                                  5
Highlights                                                                           City Letter Carriers Returning After 5 P.M. in the Capital District
                                                                                     The number of Capital District city letter carriers returning after 5 p.m. has increased by14 percent from 82,935 occurrences in
                                                                                     FY 2011, Q1 to 100,239 occurrences in FY 2013, Q4 on 1,834 routes4 (see Figure 1).

                                                                                     Figure 1. Occurences of City Carriers Returning After 5 P.M.

                                                                                     Figure 1. Occurrences of City Letter Carriers Returning After 5 P.M.
Table of Contents
Findings




                                                                                     Source: EDW as of November 16, 2013.
Recommendations
Appendices




                                                                                     4	 Due to reporting in Enterprise Data Warehouse (EDW), some data reflect conditions as of a specific date in time (route start times) while others show the average over a
                                                                                        span of time (carriers returning after 5 p.m.). This results in minor differences in some base numbers for the number of routes.
                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                                            Print                                                  6
Highlights                                                                           The two main causes of carriers returning after 5 p.m. are late mail arriving from the plants and insufficient supervision of city letter
                                                                                     carriers.

                                                                                     Late Mail Arrival
                                                                                     Mail did not always arrive on time5 or in the proper mail mix. The Postal Service designed the IOP to help stabilize mail flow by
                                                                                     setting delivery units’ and processing facilities’ expectations for when mail should arrive and in what quantities. This information is
                                                                                     critical to establishing appropriate staffing and reporting times to eliminate carrier delays. Some delivery unit officials indicated they
                                                                                     did not use the IOP because it contained outdated information. Instead, they established late carrier reporting times after 8 a.m.
                                                                                     to ensure that 80 percent of carrier route workload (mail) had arrived from the mail processing facilities and was ready for street
Table of Contents




                                                                                     delivery. Carriers had reporting times of 8:30 a.m. or later on 60 percent of the routes (1,103 of 1,834) in the Capital District
                                                                                     (see Table 1).

                                                                                     Table 1. Analysis of Capital District City Delivery Route Carrier Start Times

                                                                                                                                                        Percentage of
                                                                                      Number of Routes              Start Time                          District
                                                                                      115                           Before 8 a.m.                       6%
                                                                                      607                           At 8 a.m.                           33%
                                                                                      722                           Total 8 a.m. or earlier             39%
Findings




                                                                                      967                           At 8:30 a.m.                        53%
                                                                                      145                           At 9 a.m. or later                  8%
                                                                                      1,112                         Total 8:30 a.m. or later            61%
                                                                                      1,834                                                             100%
                                                                                      Source: EDW as of November 16, 2013.
Recommendations
Appendices




                                                                                     5	 Two processing facilities in the Capital District were consolidated and the transportation to delivery units was, in some cases, outside the 50-mile radius.
                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                                                Print                                  7
Highlights                                                                           Our analysis of the 10 delivery units with the most and fewest city delivery carriers returning after 5 p.m. determined that mail did
                                                                                     not always arrive on time from the plant and the units did not have IOPs that reflected the correct mail arrival times or quantities
                                                                                     (see Table 2).

                                                                                     Table 2. OIG Analysis of Site Visit Locations – Selected Capital District City Delivery Units

                                                                                                                                                       Updated
                                                                                     Delivery Units With the Most Carriers                             Information Needed
                                                                                     Returning After 5 P.M.                       Late Mail Arrival    in the IOPs
Table of Contents




                                                                                     Friendship Station                                    P                     P
                                                                                     Lexington Park/Pax River Post Office                  P                     P
                                                                                     Hyattsville Post Office                               P                     P
                                                                                     Georgetown Carrier Annex                              P                     P
                                                                                     Columbia Heights Annex                                P                     P
                                                                                                                                                     Updated
                                                                                     Delivery Units With the Fewest Carriers       Late Mail Arrival Information Needed
                                                                                     Returning After 5 P.M.                                          in the IOPs
                                                                                     Burtonsville Post Office                            —                     P
                                                                                     Damascus Post Office                                 P                    P
                                                                                     Congress Heights Station                            —                     P
                                                                                     Montgomery Village Branch                           —
Findings




                                                                                                                                                               P
                                                                                     Bowie Post Office                                    P                    P
                                                                                     Source: OIG analysis
Recommendations
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                  Print                                      8
Highlights                                                                           In several instances, the delivery units needed to update their IOPs. For example, our review of the Friendship Station delivery unit
                                                                                     indicated that unit and plant officials issued an IOP during the week of January 17, 2014. Although the IOP reflected a correct date,
                                                                                     the information had incomplete mail arrival expectations for four of the 12 mail types. These are highlighted in yellow in Table 3.

                                                                                     Table 3. Examples of Incomplete IOP Section: III Mail Processed and Dispatched

                                                                                                                                                                                    Total
                                                                                                 Mail Type                                   Mail Dispatch Times                 Percentage
                                                                                                 Received                                                                          at Unit
Table of Contents




                                                                                                                       1:30 A.M.             4:30 A.M.   6:50 A.M.   4:00 P.M.   Goal 80%
                                                                                         Manual Standard
                                                                                     1.                                    25%                  —           —           —           25%
                                                                                         Flats
                                                                                     2. Automated                            —                  —           —           —            —
                                                                                         Standard Flats
                                                                                         Automated
                                                                                         Parcel Bar Sorter
                                                                                     3. (APBS Carrier                        —                  —           —           —            —
                                                                                         Route) 137
                                                                                         Standard
                                                                                         APBS Carrier
                                                                                     4. Route 136                            —                 25%         25%         25%          75%
                                                                                         Periodicals
                                                                                     5. Manual   First-
Findings




                                                                                                                             —                 30%         30%         30%          90%
                                                                                         Class Flats
                                                                                     6. Automated    First-                  —                  —         100%                     100%
                                                                                         Class Flats
                                                                                     7. Priority Mail                        —                 30%         20%         25%          75%
                                                                                         First Pass
                                                                                     8. Delivery  Point                      —                100%          —           —          100%
                                                                                         Sequence (DPS)
                                                                                         Rejects
Recommendations




                                                                                         Final Pass DPS
                                                                                     9. Rejects  and                         —                  —           —           —            —
                                                                                         Carrier Routed
                                                                                         Bundles
                                                                                     10. Parcel Post 200                   25%                 50%         25%                     100%
                                                                                     11. Flat Sequencing                     —                  —           —           —            —
                                                                                         Sorter (FSS)
                                                                                     12. Express 131                         —                  —         100%          —          100%
                                                                                     Source: OIG analysis based on Friendship Station IOP.


                                                                                     When asked about mail arrival, Capital District officials stated the consolidation of the Suburban Annex and Waldorf facilities into
                                                                                     the Southern Processing and Distribution Center had a major impact on mail arrival time. Management consolidated these facilities
Appendices




                                                                                     with the expectation of having relaxed service standards, but that never happened. This resulted in a processing infrastructure
                                                                                     geared for 2-day processing with a 1-day delivery standard. In addition, Overnight Priority service expectations were changed.



                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                              Print                     9
Highlights                                                                           The Baltimore and Northern Virginia districts previously had 2-day delivery service to the Capital District, but were subsequently
                                                                                     upgraded to Overnight service. This further strained the processing capacity and accounts for an increase in Priority Mail being
                                                                                     sent on the final dispatch with units’ DPS mail.

                                                                                     We also observed several instances of working mail6 or parcel volume arriving at delivery units with the last dispatch of the
                                                                                     morning, stacked on top of each other, and not properly organized. Usually a clerk or supervisor reorganizes the mail; however,
                                                                                     some carriers unloaded and sorted through the containers to identify the mail for their routes (see Figure 2). When carriers have to
                                                                                     search for their mail trays, their loading and departure are delayed, thereby delaying their delivery time.
Table of Contents




                                                                                     Figure 2: Carriers Sorting Through Mail
Findings
Recommendations




                                                                                     Source: OIG photograph taken January 2014.
Appendices




                                                                                     6	 Mail that must be manually sorted into delivery order by carriers prior to departing for street operations. Late arrival of this mail can increase a carrier’s office time, resulting
                                                                                        in late departure to begin street operations and possible overtime or return after 5 p.m.
                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                                                   Print                                                 10
Highlights                                                                           Supervision
                                                                                     Supervisors did not always adequately oversee carrier delivery operations. The offices with late carriers had, on average, a
                                                                                     1:13 span of control ratio,7 whereas the five offices with the fewest carriers returning after 5 p.m. had, on average, a 1:8 span of
                                                                                     control ratio (see Table 4).

                                                                                     Table 4. Supervision in Capital District City Delivery Units We Visited

                                                                                                                                                                                                                                                         Changes in
Table of Contents




                                                                                         Highest                                                                                                                                                         Percent to
                                                                                         Number of                                                          Supervisor to                                                Performance                     Standard
                                                                                         Carriers                Authorized                     Observed    Route Span- Total                                            Indicators Trend                from Q1, FY
                                                                                         Returning               Supervisor                     Supervisors of-Control    Carriers on                                    Over Previous 5                 2013 to Q1,
                                                                                         After 5 P.M.            Complement              Routes to Routes   Ratio         Routes1                                        Quarters2                       FY 2014
                                                                                         Lexington                                                                                                                       Þ Office – Down                 215.9% to
                                                                                         Park/Pax River 2                                7             2:7                   1:4                     8                   Ý Street – Up                   163.38%
                                                                                         Post Office                                                                                                                     Ý Overtime – Up
                                                                                         Columbia                                                                                                                        Þ Office – Down                 130.32% to
                                                                                         Heights Annex 5                                 66            6:66                  1:11                    100                 Ý Street – Up                   129.01%
                                                                                                                                                                                                                         Ý Overtime – Up
                                                                                         Friendship                                                                                                                      Þ Office – Down                 166.01% to
                                                                                                                 5                       36            3:36                  1:12                    65                  Ý Street – Up
                                                                                         Station                                                                                                                                                         130.66%
                                                                                                                                                                                                                         Ý Overtime – Up
Findings




                                                                                         Hyattsville                                                                                                                     Þ Office – Down                 113.25% to
                                                                                                                 6                       99            7:99                  1:14                    101                 Ý Street – Up
                                                                                         Post Office                                                                                                                                                     98.83%
                                                                                                                                                                                                                         Ý Overtime – Up
                                                                                         Georgetown                                                                                                                      Þ Office – Down                 145.26% to
                                                                                                                 5                       63            3:63                  1:21                    106                 Ý Street – Up
                                                                                         Carrier Annex                                                                                                                                                   114.69%
                                                                                                                                                                                                                         Ý Overtime – Up
                                                                                         Total/Average 23                                271           21:271                1:13                    380
                                                                                         1 Carrier staffing was not a factor in units visited. However, as noted in the Readiness for Package Growth - Delivery Operations report number DR-MA-14-001, dated
                                                                                           December 11, 2013. The OIG noted retention issues for City Carrier Assistants and management initiated corrective action during the audit.
Recommendations




                                                                                         2 Office and Street Variance, Overtime, and Percent to Standard Performance Information for the site for FY 2013, Quarters 1-4 and FY 2014, Quarter 1.
Appendices




                                                                                     7	 The Capital District carrier to route ratio was 1:30 in February 2014 and 1:36 in June 2014. The district’s goal is a carrier to route ratio of 1:39 by August 2014.
                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                                                        Print                                          11
                                                                                                                                                                                                           Changes in
Highlights
                                                                                        Lowest                                                                                                             Percent to
                                                                                        Number of                                             Supervisor to                         Performance            Standard
                                                                                        Carriers       Authorized                 Observed    Routes Span Total                     Indicators Trend       from Q1,
                                                                                        Arriving After Supervisor                 Supervisors of Control    Carriers on             Over previous 5        FY 2013 to
                                                                                        5 P.M.         Complement          Routes to Routes   Ratio         Routes                  quarters               Q1 FY 2014

                                                                                        Burtonsville                                                                                Ý Office – Up          77.36% to
                                                                                                                2          9        2:9             1:5               14            Ý Street – Up
                                                                                        Post Office                                                                                                        83.44%
                                                                                                                                                                                    Ý Overtime – Up
                                                                                                                                                                                    Þ Office – Down
Table of Contents




                                                                                        Damascus                                                                                                           93.99% to
                                                                                                                2          10       2:10            1:5               14            Ý Street – Up
                                                                                        Post Office                                                                                                        98.81%
                                                                                                                                                                                    Ý Overtime – Up
                                                                                        Congress                                                                                    Ý Office – Up          109.73% to
                                                                                        Heights                 4          18       2:18            1:9               27            Ý Street – Up          119.15%
                                                                                        Station                                                                                     Ý Overtime – Up
                                                                                        Montgomery                                                                                  Ý Office – Up          104.31% to
                                                                                        Village Branch 2                   34       4:34            1:9               56            Þ Street – Down        127.81%
                                                                                                                                                                                    Ý Overtime – Up
                                                                                        Bowie Post                                                                                  Þ Office – Down        96.73% to
                                                                                                                4          35       3:35            1:12              48            Ý Street – Up
                                                                                        Office                                                                                                             97.5%
                                                                                                                                                                                    Ý Overtime – Up
                                                                                        Total/Average 14                   106      13:106          1:8               159
                                                                                        Source: OIG analysis.
Findings




                                                                                     Further, we observed several instances where supervisors were not on the workroom floor supervising workers or on the street
                                                                                     observing deliveries. Supervisors said they would like to spend more time observing operations and correcting inefficient carrier
                                                                                     habits, but are too busy with other tasks. Capital District officials further indicated that when they try to take corrective measures or
                                                                                     progressive corrective actions to curtail inefficient carrier behaviors, the resulting grievances are nearly always settled in favor of
                                                                                     the carriers.

                                                                                     On the other hand, we also observed that supervisors at the best performing units were consistently present on the workroom
Recommendations




                                                                                     floor. These supervisors established clear daily expectations for employees, including timeframes for readying mail for carriers,
                                                                                     talking with carriers about leave and return times, and using the Workload Status report as a tool for determining mail volume and
                                                                                     time. When mail arrived late, supervisors redirected staff work efforts as necessary to minimize impact. Officials also followed up to
                                                                                     identify issues for corrective actions using Managed Service Point (MSP) and Route Carrier Daily Performance report information.

                                                                                     Adhering to IOPs will improve mail arrival time at delivery units. Further, improved supervision of city letter carriers will reduce the
                                                                                     number of carriers returning after 5 p.m., increase carrier safety, and reduce late mail deliveries.
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                   Print                                    12
Highlights                                                                           Management Actions
                                                                                     During our interim meeting with Capital Area and District management, officials agreed that unit managers did not always properly
                                                                                     supervise city delivery operations at delivery units, allowing for some inefficiency in operations. Officials indicated they have
                                                                                     discussed with South Florida District officials8 the corrective actions they implemented to address similar problems.

                                                                                     Officials informed the OIG that they have initiated plans to decrease the number of carriers returning after 5 p.m., including using
                            In other matters, external                               a staff intervention/support team. The team will have daily teleconferences, review budget/production performance, and review
                                                                                     operations at offices that did not achieve plan to determine the corrective actions needed to improve performance. The team will
Table of Contents




                         stakeholders suggested the                                  also help reinforce and ensure adherence to Postal Service policies and procedures through intense oversight at each delivery
                                                                                     unit, including daily and weekly operational monitoring, site visits to delivery units, team reviews, team coaching and mentoring of
                       Postal Service take additional
                                                                                     supervisory efforts, and coordination with processing plant officials to revise the IOPs. Capital Area management also informed
                            safety measures such as                                  the OIG that the Postal Service is implementing a 24-hour clock initiative. This new initiative will have daily scorecards to show
                                                                                     delivery performance and allow adjustments in units for carrier starting times, which are based on the scheduled mail arrivals from
                          providing brightly colored,                                the processing plants.

                          reflective clothing to make
                                                                                     Other Matters
                        city carriers more visible and                               With the increase in carriers delivering mail after 5 p.m. comes increased risks to safety. Each day some carriers deliver mail to
                                                                                     locations that could be considered unsafe and deliveries late in the day can exacerbate potential dangers. For that reason, the
                        identifiable in the dark. Other
                                                                                     Postal Service and the National Association of Letter Carriers (NALC) have been working together at the national level to discuss
                     suggestions included providing                                  such safety issues. It has been suggested that the Postal Service take additional safety measures such as providing brightly
Findings




                                                                                     colored, reflective clothing so city carriers are more visible and identifiable in the dark. Other suggestions included providing
                        additional safety training and                               additional safety training and realigning delivery routes so carriers deliver earlier in the day to dangerous areas.
                        realigning delivery routes so
                         carriers deliver earlier in the
                       day to areas considered to be
Recommendations




                                          dangerous.
Appendices




                                                                                     8	 City Delivery Efficiency in the South Florida District (Report Number DR-AR-14-004, dated March 4, 2014). Management implemented initiatives to reduce the number of
                                                                                        carriers returning after 5 p.m. that include daily teleconferences, support teams to coach and mentor supervisors, review of budget/production performance, updated IOPs,
                                                                                        and review of offices that did not have a plan to include corrective actions to improve performance.
                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                                           Print                                              13
Highlights
                    Recommendations                                                  We recommend the manager, Capital District, instruct delivery unit supervisors to:

                                                                                     1.	 Prepare integrated operating plans with facility processing managers to include changes to the 24-hour clock to facilitate earlier
                                                                                         arrival of mail at the delivery units.

                                                                                     2.	 Ensure adherence to Postal Service policies and procedures for supervising city delivery operations at delivery units.

                        We recommend the manager,                                    3.	 Work with local managers and officials to address carrier safety.
Table of Contents




                             Capital District, prepare
                                                                                     Management’s Comments
                      integrated operating plans with                                Management agreed with the findings and recommendations.
                    facility processing managers that
                                                                                     Regarding recommendation 1, management agreed to prepare IOPs with facility processing managers to include changes to
                      include changes to the 24-hour                                 the 24-hour clock to facilitate earlier arrival of mail at delivery units. Officials indicated that operations, customer service, and
                                                                                     processing have partnered to implement the IOPs for all customer service delivery offices. The net result of IOP implementation
                      clock to facilitate earlier arrival                            will be distribution up times that are earlier for most sites, allowing carriers to leave for the street sooner and return earlier, thereby
                                                                                     reducing the number of carriers arriving after 5 p.m. The target implementation date is July 2014.
                         of mail at delivery units. We
                       also recommended adherence                                    Regarding recommendation 2, management agreed to ensure adherence to Postal Service policies and procedures for
                                                                                     supervising city delivery operations at delivery units. District officials indicated they prefer to use objective data to determine
                       to Postal Service policies and
Findings




                                                                                     adherence instead of relying on interviews with current managers. Officials indicated that they were in the process of implementing
                                                                                     the Delivery Enhancement and Engagement Team concept before the audit start date. Officials further indicated that the Capital
                          procedures for supervising                                 District is fully utilizing a Delivery Enhancement and Engagement Team approach to train and support managers, as well as
                                                                                     monitor progress and adherence at delivery units. This team is composed of subject matter experts who have 4 weeks of on-the-
                         city delivery operations and
                                                                                     job training on various functions that need improvement. Management stated that the entire Capital District leadership supports
                    collaboration with managers and                                  this ongoing, comprehensive program.

                           union officials to address                                Management also stated that the Capital District has started training all Executive Administration and Salary (EAS) employees to
Recommendations




                                                                                     be certified route examiners. These examiners are reviewing carriers working over 8 hours on their own assignments. Officials
                                       carrier safety.
                                                                                     further stated that all EAS-20 and above units are changing the distribution up time to 8:50 a.m. to improve the number of carriers
                                                                                     on the street by 9:00 a.m. and reduce the number of carriers out after 5 p.m. The target implementation date is September 2014.

                                                                                     Regarding recommendation 3, management agreed to work with local managers and officials to address carrier safety. Officials
                                                                                     indicated they prefer to have objective carrier safety data to review instead of relying on interviews with current managers. Officials
                                                                                     indicated the Delivery Enhancement and Engagement Team process will drive efficiency by getting carriers out for delivery earlier
                                                                                     and driving down the number of carriers out after 5 p.m. Officials are revising one route with a line of travel concern based on the
                                                                                     24-hour clock process. Management is also reviewing craft and EAS staffing and addressing it as needed. Officials are giving
                                                                                     safety awareness talks to carriers before they leave for the street several times a week and the Capital District Safety Office
                                                                                     is conducting ongoing “safety blitzes” to assess carriers on the street and curtail unsafe behaviors. Finally, managers at each
Appendices




                                                                                     facility are enforcing the requirement that carriers complete Notice 76 – Vehicle Checks prior to leaving to reduce the potential for
                                                                                     accidents. The target implementation date is August 2014.



                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                     Print                                    14
Highlights                                                                           Management indicated that the Capital District has also partnered with the NALC to create a Joint Safety Task Force that will
                                                                                     focus on employee safety at units identified as having safety concerns. The process began July 7, 2014, and will be ongoing.
                                                                                     Management further stated that the Capital District is continuing to hire city carrier assistants (CCA) in an effort to fill all 500
                                                                                     authorized positions. District officials have currently staffed 350 of the 500 positions and converted 175 CCA positions to full-time
                                                                                     regular status.

                                                                                     See Appendix B for management’s comments, in their entirety.

                                                                                     Evaluation of Management’s Comments
Table of Contents




                                                                                     The OIG considers management’s comments responsive to the recommendations in the report.

                                                                                     Officials indicated that they would prefer to have objective data to review for recommendations 2 and 3 instead of interviews
                                                                                     with current managers. For recommendation 2, we included data on supervisor span of control and various efficiency indicators
                                                                                     and data from the EDW and the Delivery Operations Information System for city letter carriers returning after 5 p.m. For
                                                                                     recommendation 3, we did not include data in the section of the report addressing carrier safety because it was an “Other Matters”
                                                                                     issue and not part of the objective. Nevertheless, we felt the safety issue was important to report on.

                                                                                     The OIG considers all recommendations significant, and therefore requires OIG concurrence before closure. Consequently, the
                                                                                     OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                                                     Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Findings
Recommendations
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                  Print                                  15
Highlights
                    Appendices
                                                                                     Appendix A: Additional Information...........................................................17
                                                                                      Background............................................................................................17
                                                                                      Objective, Scope, and Methodology.......................................................19
                                                                                      Prior Audit Coverage..............................................................................20
                     Click on the appendix title to the
                                                                                     Appendix B: Management’s Comments....................................................21
Table of Contents




                      right to navigate to the section
                                             content.
Findings
Recommendations
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                        Print                    16
Highlights          Appendix A: Additional                                           Background
                    Information                                                      In recent years, more city letter carriers have been returning from their delivery routes after 5 p.m. This increases safety concerns
                                                                                     and recent media reports have highlighted instances of violence involving carriers delivering mail in the dark. The average number
                                                                                     of city letter carriers returning after 5 p.m. has increased from 34,933 (25 percent) in FY 2011 to 38,206 (29 percent) in FY 2012,
                                                                                     and 50,307 (38 percent) in FY 2013 (see Figure 3).

                                                                                     Figure 3. Average Number of Occurrences of City Letter Carriers Returning
                                                                                     	         After 5 P.M. From FYs 2011 to 2013
Table of Contents
Findings
Recommendations




                                                                                     Source: EDW as of November 16, 2013.


                                                                                     The Postal Service’s goal is for 95 percent of city letter carriers to return from street operations before 5 p.m. Achieving this goal
                                                                                     helps the Postal Service meet its 24-hour operational requirement to collect, distribute, and deliver mail on time. To accomplish
                                                                                     this, supervisors ensure facilities update IOPs on time and stabilize mail flow into the units, which is critical to establishing
                                                                                     appropriate carrier reporting times. Supervisors must also maintain a presence on the workroom floor, review work expectations,
                                                                                     and observe street deliveries. Finally, supervisors use the Customer Service Daily Reporting System (CSDRS) to report mail
                                                                                     arrival issues from mail processing facilities and workload status reports to help manage available mail volume in relation to time.
                                                                                     Management follows up on discrepancies from the previous days using the MSP and Route Carrier Daily Performance reports.
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                  Print                                   17
Highlights                                                                           The OIG’s City Delivery Efficiency PARIS risk indicator results for FY 2013 consistently ranked the Capital Metro Area’s Capital
                                                                                     District among the five districts nationwide with the most city carriers returning after 5 p.m. (see Figure 4).

                                                                                     Figure 4. National Ranking City Letter Carriers Returning After 5 P.M.
Table of Contents
Findings




                                                                                     Source: EDW as of November 16, 2013.
Recommendations
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                Print                                   18
Highlights                                                                           Objective, Scope, and Methodology
                                                                                     Our objective was to assess city letter carriers returning after 5 p.m. in the Capital District. To accomplish our objective, we:

                                                                                     ■■ Reviewed documentation and applicable policies and procedures related to city delivery efficiency in office and street
                                                                                        operations to identify opportunities to improve operational efficiency.

                                                                                     ■■ Reviewed city delivery efficiency indicators for FY 2011, Q1 through FY 2013, Q4 and identified inefficiencies in the Capital
                                                                                        District. Our scope did not include review of rural delivery carriers since the data is only available for the previous 90 calendar
Table of Contents




                                                                                        days.

                                                                                     ■■ Obtained and analyzed delivery unit data from the EDW and Delivery Operations Information System (DOIS) from FY 2013, Q1
                                                                                        through FY 2013, Q4 for city letter carriers returning after 5 p.m. We also reviewed and analyzed carriers returning after 5 p.m.
                                                                                        data as reported in the CSDRS to determine incidents of rural carriers returning after 5 p.m.

                                                                                     ■■ Selected and observed the five delivery units with the highest percentage of carriers returning after 5 p.m., which included
                                                                                        the Friendship Station, the Lexington Park/Pax River and Hyattsville post offices, and the Georgetown and Columbia Heights
                                                                                        Annex delivery units.

                                                                                     ■■ Selected and observed the five delivery units with the lowest percentage of carriers returning after 5 p.m., which included the
                                                                                        Burtonsville, Damascus, and Bowie post offices; the Congress Heights Station; and the Montgomery Village Branch.
Findings




                                                                                     ■■ Interviewed area, Capital District, and selected unit officials to discuss delivery efficiency and carriers returning after 5 p.m.

                                                                                     We conducted this performance audit from January through July 2014, in accordance with generally accepted government auditing
                                                                                     standards and included such tests of internal controls as we considered necessary under the circumstances. Those standards
                                                                                     require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
                                                                                     and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable basis for our findings
                                                                                     and conclusions based on our audit objective. We discussed our observations and conclusions with management on March 4,
Recommendations




                                                                                     2014 and June 5, 2014, and included their comments where appropriate.

                                                                                     We relied on data obtained from Postal Service database systems, such as EDW, DOIS, and CSDRS. We did not directly audit the
                                                                                     systems, but performed a limited data integrity review to support our data reliance. We assessed the reliability of systems’ data by
                                                                                     reviewing existing information about the data and the systems that produced it and interviewing agency officials knowledgeable
                                                                                     about the data. We determined the data were sufficiently reliable for the purposes of the report.
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                    Print                                    19
Highlights                                                                           Prior Audit Coverage
                                                                                                                                                  Final Report          Monetary Impact
                                                                                               Report Title               Report Number               Date                (in millions)
                                                                                     City Delivery Efficiency - South      DR-AR-14-004              3/4/2014
                                                                                                                                                                           $30,587,250
                                                                                     Florida District
                                                                                     Report Results: The report determined the South Florida District has opportunities to enhance
                                                                                     efficiency in city delivery operations. We found that 83 of 112 delivery units (74 percent) used
                                                                                     374,982 more workhours than projected. This occurred because management did not always
                                                                                     enforce policies and procedures for supervising city delivery operations. Also, office and street
Table of Contents




                                                                                     supervision was inconsistent at the delivery units, allowing for some inefficiency in operations.
                                                                                     Officials indicated their office workload priorities limited their ability to monitor carriers delivering
                                                                                     mail. We identified the potential to eliminate 374,982 workhours through improved supervision
                                                                                     and other efforts. Management agreed with our findings, recommendations, and monetary
                                                                                     impact.
                                                                                     City Delivery – Street Efficiency     DR-AR-12-003             8/16/2012               $9,138,265
                                                                                     Capital District
                                                                                     Report Results: The report determined the Capital District has opportunities to enhance street
                                                                                     delivery efficiency and could use about 12 fewer minutes of street time per day on each carrier
                                                                                     route, or 110,740 workhours, and save about $4.5 million annually. Our review of selected
                                                                                     delivery units determined that management did not always reinforce Postal Service policies and
                                                                                     procedures for supervising city delivery street operations at delivery units, which allowed for
                                                                                     some inefficient delivery practices. Management agreed with our findings, recommendations,
                                                                                     and monetary impact.
Findings
Recommendations
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                                                          Print   20
Highlights          Appendix B: Management’s
                    Comments
Table of Contents
Findings
Recommendations
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                     Print   21
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                     Print   22
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                     Print   23
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                     Print   24
Highlights
Table of Contents
Findings




                                                                                        Contact us via our Hotline and FOIA forms, follow us on social
                                                                                     networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                                            or abuse. Stay informed.
Recommendations




                                                                                                           1735 North Lynn Street
                                                                                                          Arlington, VA 22209-2020
                                                                                                                (703) 248-2100
Appendices




                    City Letter Carriers Returning After 5 P.M. – Capital District
                    Report Number DR-AR-14-006
                                                                                                                                                              Print   25
